HHS/OIG-Audit--"Coordination of Specialized Transportation Services, (A-05-95-00023)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Coordination of Specialized Transportation Services," (A-05-95-00023)
October 4, 1995
Complete Text of Report is available in PDF format
(1.1 mb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out best practices and opportunities for States to
increase specialized transportation services for the elderly, disabled, and
others without a corresponding increase in Federal expenditures. In the 2 States
reviewed, only a few communities in each had developed comprehensive coordinated
transportation systems. We found those communities were able to provide more
services and provide them in a more economical manner. Benefits included increased
capacity, better quality of service, improved effectiveness of primary services,
cost savings, and upgraded preventive maintenance programs which contributed
to greater safety. Recommendations call for the Administration on Aging (AoA)
to actively promote transportation consortiums and provide the assistance needed
by State agencies and local transit providers to promote coordinated transit
systems. The AoA generally concurred with these recommendations.